<html>
<title> - THE EMPLOYMENT SITUATION: OCTOBER 2011</title>
<body><pre>[Senate Hearing 112-264]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-264
 
                 THE EMPLOYMENT SITUATION: OCTOBER 2011

=======================================================================



                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE

                     CONGRESS OF THE UNITED STATES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 4, 2011

                               __________

          Printed for the use of the Joint Economic Committee




                  U.S. GOVERNMENT PRINTING OFFICE
72-183                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

SENATE                               HOUSE OF REPRESENTATIVES
Robert P. Casey, Jr., Pennsylvania,  Kevin Brady, Texas, Vice Chairman
    Chairman                         Michael C. Burgess, M.D., Texas
Jeff Bingaman, New Mexico            John Campbell, California
Amy Klobuchar, Minnesota             Sean P. Duffy, Wisconsin
Jim Webb, Virginia                   Justin Amash, Michigan
Mark R. Warner, Virginia             Mick Mulvaney, South Carolina
Bernard Sanders, Vermont             Maurice D. Hinchey, New York
Jim DeMint, South Carolina           Carolyn B. Maloney, New York
Daniel Coats, Indiana                Loretta Sanchez, California
Mike Lee, Utah                       Elijah E. Cummings, Maryland
Pat Toomey, Pennsylvania

                 William E. Hansen, Executive Director
              Robert P. O'Quinn, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                     Opening Statements of Members

Hon. Maurice D. Hinchey, a U.S. Representative from New York.....     1
Hon. Kevin Brady, Vice Chairman, a U.S. Representative from Texas     2

                               Witnesses

Dr. Keith Hall, Commissioner, Bureau of Labor Statistics, 
  accompanied by: Dr. Michael Horrigan, Associate Commissioner 
  for Prices and Living Conditions, Bureau of Labor Statistics; 
  and Mr. Jack Galvin, Acting Deputy Commissioner, Bureau of 
  Labor Statistics...............................................     5

                       Submissions for the Record

Prepared statement of Vice Chairman Kevin Brady..................    20
Prepared statement of Dr. Keith Hall, together with Press Release 
  No. USDL-11-1576...............................................    21
Chart submitted by Vice Chairman Brady titled ``Monthly Change in 
  Government Payrolls Seasonally Adjusted January 2008-October 
  2011''.........................................................    60
Chart submitted by Vice Chairman Brady titled ``Monthly Change in 
  Private Payrolls Seasonally Adjusted January 2008-October 
  2011''.........................................................    61
Chart submitted by Vice Chairman Brady titled ``Monthly Change in 
  Private Payrolls Seasonally Adjusted January 2008-September 
  2011''.........................................................    62
Letter dated November 22, 2011, transmitting Dr. Keith Hall's 
  response to Representative Carolyn Maloney.....................    63
Letter dated December 1, 2011, transmitting Dr. Keith Hall's 
  response to Representative Michael C. Burgess..................    67


                 THE EMPLOYMENT SITUATION: OCTOBER 2011

                              ----------                              


                        FRIDAY, NOVEMBER 4, 2011

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:00 a.m., in Room 
210, Cannon House Office Building, Hon. Maurice Hinchey 
presiding.
    Representatives present: Brady, Burgess, Mulvaney, Hinchey, 
and Maloney.
    Staff present: Ted Boll, Robert O'Quinn, Sean Ryan, Gail 
Cohen, Cary Elliott, Will Hansen, Colleen Healy, and Jesse 
Hervitz.

     OPENING STATEMENT OF HON. MAURICE D. HINCHEY, A U.S. 
                  REPRESENTATIVE FROM NEW YORK

    Representative Hinchey. Gentlemen, thank you very much. We 
are about to start. We are under a little pressure because we 
are going to have votes coming up sometime probably within the 
next half-hour. So let me just open with a few statements.
    First of all, Chairman Casey couldn't be here today, and I 
am very pleased to stand in for him this morning.
    I would like to welcome Commissioner Hall back this month 
and also welcome Acting Deputy Commissioner Jack Galvin, who is 
joining Commissioner Hall and Dr. Horrigan at the table for the 
first time today.
    Thank you very much for being here, all three of you. I 
appreciate it.
    Dr. Galvin previously served as associate commissioner for 
employment and unemployment statistics from 1998 to September 
2011 and in other senior positions at the Bureau of Labor 
Statistics.
    In the past few weeks, we have gotten several economic 
reports, including today's employment report, which have shown 
a mixed economic picture. The data are better than a few months 
ago but not strong enough to significantly bring down the 
unemployment rate.
    On the positive side, the 2.5 percent increase in gross 
domestic product in the third quarter was stronger than the 
growth achieved during the first half of the year, showing 
movement in the right, appropriate direction. However, real 
disposable personal income declined in the third quarter, 
indicating that consumers are continuing to feel the pressure 
of stagnant wages.
    The ISM Manufacturing Index reading of 50.8 percent in 
October marked the 27th consecutive month of expansion in the 
manufacturing sector. But the sector, so important to our 
economic growth, decelerated slightly from September, 51.6 
percent in the reading.
    As today's employment numbers show, economic growth is 
still not strong enough to make significant headway cutting 
into the unemployment rate. More than nine quarters into the 
recovery, unemployment remains at 9 percent, officially 9.1 
percent, and more than 42 percent of the unemployed have been 
out of work for 6 months or more. We need to move from 
discussion of the American Jobs Act to passing legislation that 
will help to create jobs and strengthen this economy.
    Before I turn to today's employment report, I want to 
highlight a few actions we could take to bolster the economy.
    First of all, we should provide new incentives for small 
firms to hire. Chairman Casey has introduced legislation which 
creates a 1-year quarterly tax credit equal to up to 20 percent 
of the total increase in employee wages. Also, we should extend 
and expand the employee payroll tax cut, which is set to expire 
at the end of the year. This will boost demand, create jobs, 
and strengthen our economy.
    We must support our State and local governments, which have 
been forced to lay off hundreds of thousands of workers, 
including teachers and first responders, to meet balanced-
budget requirements.
    The House should take up legislation already passed by the 
Senate to crack down on China's currency manipulation. And we 
need to strengthen U.S. manufacturing by creating a national 
manufacturing strategy that supports manufacturing companies 
and workers in our country.
    There are a number of other things that we could say here, 
but I want to just wrap it up and ask Mr. Brady for some 
statements.
    Mr. Brady, thank you.

 OPENING STATEMENT OF HON. KEVIN BRADY, VICE CHAIRMAN, A U.S. 
                   REPRESENTATIVE FROM TEXAS

    Vice Chairman Brady. Commissioner Hall, I want to thank you 
for spending your morning with us as we review the employment 
situation. For some time now, you have had the difficult job of 
being the bearer of bad news as many hardworking Americans have 
desperately sought a sustained economic recovery. You will be 
happy to know that we don't shoot the messenger here in 
Washington, at least not yet.
    I would like to begin with some potential hope for our 
economy following two dismal quarters of anemic growth. Real 
gross domestic product grew at an annual rate of 2.5 percent in 
the third quarter of this year. So, finally, America's economy 
is marginally larger than it was when the recession began in 
December of 2007.
    Unfortunately, the outlook going forward looks less rosy. 
Projections of future economic growth for the balance of this 
year and next have been significantly lowered by the Fed as 
well as international economic organizations. The turbulence 
from a potential financial crisis in Europe could still 
precipitate a double-dip recession here--a very real threat 
which could have been avoided had poor economic policies from 
the White House not resulted in a very weak and a very slow 
recovery.
    Equally troubling is this jobless recovery. More than 2 
years after the recession officially ended, there are 6.4 
million fewer payroll jobs in America than when the recession 
began and more than 5.9 million Americans are long-term 
unemployed. The President's policies are simply not working.
    By comparison, the Reagan expansion which followed the 
similarly deep 1981-1982 recession outperforms Obama's economy 
by all metrics, including economic growth and job creation. The 
difference is the Reagan expansion occurred in a political 
environment that fostered private business investment and 
encouraged Americans to work and save.
    President Reagan's policies were a favorable tailwind. In 
contrast, the American economy now confronts policy headwinds. 
Virtually every step of the way, President Obama and 
congressional Democrats have increased, not decreased, 
uncertainty that Americans and American businesses have faced. 
This uncertainty has discouraged businesses from making 
investment in new buildings, equipment, and software that would 
create millions of new jobs and cause a rapid fall in the 
unemployment rate. Instead, Washington should create a 
political environment that incentivizes Americans to work and 
save and incentivizes American businesses to invest. Then 
Washington should get out of the way.
    This is the first employment hearing since President 
Obama's proposal for a second round of stimulus spending that 
would require massive new borrowing from foreign entities, 
creating debt which future generations of hardworking Americans 
would have to pay for. Stimulus II is not paid for. It will add 
billions more to the national debt and is wrongly focused on 
creating taxpayer-funded government jobs.
    Not only can we not afford it, but it is a glaring 
admission that the first stimulus failed. Remember, we still 
have 1.3 million fewer American jobs than when the original 
stimulus began. That is 1.3 million fewer Americans working 
than when the stimulus began.
    Enough is enough. Hardworking Americans deserve a fresh 
start. America needs to grow jobs, not grow the Federal 
Government. Ultimately, private business investment drives 
private-sector payroll job growth. Businesses make their 
investments based on the outlook for the long term, not just 
the next year. The President's proposal, which even Senate 
Democrats quickly rejected, seeks to spur investment through 
temporary tax reductions but does little to encourage 
businesses to increase their investments over time.
    Rather than Washington taking more of what Americans earn, 
our Nation craves a simple, fair Tax Code that increases the 
incentives for Americans to work and save and for American 
businesses to invest. This requires a permanent reduction in 
the effective marginal tax rates on both capital and labor.
    Moreover, tax reform should help and not hinder American 
businesses who want to invest here in America. As I have 
proposed, Washington should immediately lower the tax gate to 
allow American firms competing successfully overseas to bring 
home their profits that are stranded abroad so these firms can 
invest in America--in new jobs, in new research and 
development, new expansions, and financial stability.
    Repatriation, as it is called, is a free market stimulus of 
nearly $1 trillion that will create up to 3 million American 
jobs, increase Federal tax revenues, and boost the economy by 
between 1 and 4 percent. Now, that is a stimulus America can 
get behind.
    I urge President Obama to join congressional Republicans in 
supporting a comprehensive, bipartisan tax reform that results 
in a permanent reduction in marginal tax rates.
    Twice in my lifetime I have seen the benefit of such plans, 
first under Kennedy and then under Reagan. Both men trusted in 
the American people. Put another way, they placed their faith 
in the marketplace, which is nothing more than the collective 
judgment of the American people as to where to invest their 
money. Their sound economic policies fueled the economic booms 
of the 1960s and the 1980s and the 1990s. Kennedy and Reagan 
helped spawn entirely new industries, kept our great Nation 
first in research and development, patents, inventions, and 
entrepreneurship.
    President Obama has a real chance to be a game-changer 
here, or, as he likes to say, a transformational President. All 
he needs to do is follow his predecessors' lead. Republicans in 
Congress are ready and willing to work with the President to 
create real jobs along the Main Streets across America.
    With that, Dr. Hall, I look forward to hearing your 
testimony.
    [The prepared statement of Representative Brady appears in 
the Submissions for the Record on page 20.]
    Representative Hinchey. Thank you very much.
    Because of the fact we are going to have votes very 
shortly, we ask unanimous consent to have written statements 
and we will have those statements as time goes on.
    Representative Hinchey. First of all, I would like to 
introduce Commissioner Hall.
    Dr. Keith Hall is the commissioner of labor statistics for 
the U.S. Department of Labor. BLS is an independent national 
statistical agency that collects, processes, analyzes, and 
disseminates essential statistical data to the American public, 
the U.S. Congress, other Federal agencies, State and local 
governments, businesses, and labor.
    Dr. Hall also served as chief economist for the White House 
Council of Economic Advisors for 2 years under President George 
W. Bush. Prior to that, he was chief economist for the U.S. 
Department of Commerce. Dr. Hall also spent 10 years at the 
U.S. International Trade Commission.
    Dr. Hall received his B.A. degree from the University of 
Virginia, his M.S. and Ph.D. degrees in economics from Purdue 
University.
    Dr. Hall, Mr. Galvin, Dr. Horrigan, please. Thank you.

  STATEMENT OF DR. KEITH HALL, COMMISSIONER, BUREAU OF LABOR 
  STATISTICS, ACCOMPANIED BY: DR. MICHAEL HORRIGAN, ASSOCIATE 
COMMISSIONER FOR PRICES AND LIVING CONDITIONS, BUREAU OF LABOR 
 STATISTICS; AND MR. JACK GALVIN, ACTING DEPUTY COMMISSIONER, 
                   BUREAU OF LABOR STATISTICS

    Commissioner Hall. Thank you, Mr. Chairman and members of 
the committee. Thank you for the opportunity to discuss the 
employment and unemployment data.
    This microphone doesn't work.
    Representative Hinchey. Do the best you can.
    Commissioner Hall. Nonfarm payroll employment continued to 
trend up in October, and the unemployment rate, at 9 percent, 
was little changed. Over the past 12 months, payroll employment 
has increased by an average of 125,000 per month.
    In October, private-sector employment increased by 104,000, 
with continued growth in professional and business services, 
leisure and hospitality, health care, and mining. Government 
employment continued to trend down.
    Employment in professional and business services continued 
to trend up in October. In recent months, there have been 
modest job gains in temporary help services and in management 
and technical consulting services.
    Employment in leisure and hospitality continued to trend up 
over the month. Since a recent low in January of 2010, the 
industry has added 344,000 jobs.
    Health care employment edged up by 12,000 in October, 
following a gain of 45,000 in September. The 2-month average 
increase of 29,000 was in line with the industry's recent 
trend. In October, offices of physicians gained 8,000 jobs.
    Construction employment was down by 20,000 in October, 
largely offsetting a gain in the prior month. Both over-the-
month movements largely occurred in nonresidential construction 
industries. Employment in other major private-sector industries 
changed little in October.
    Employment in government continued to trend down. State 
government, excluding education, lost 16,000 jobs over the 
month. Employment in both State government and local government 
has been falling since the second half of 2008.
    Turning now to measures from our survey of households, the 
unemployment rate was essentially unchanged at 9 percent in 
October. The jobless rate has held in a narrow range from 9.0 
to 9.2 percent since April. In October, there were 13.9 million 
unemployed persons, little changed from the prior month. The 
number of persons jobless for 27 weeks and over declined by 
366,000 to 5.9 million, or 42.4 percent of total unemployment.
    The employment-to-population ratio, at 58.4 percent, was 
little changed in October. Among the employed, those working 
part-time for economic reasons fell by 374,000, to 8.9 million.
    The labor force participation rate, at 64.2 percent, was 
unchanged over the month. Thus far in 2011, the participation 
rate has held at about 64 percent.
    Among those outside of the labor force--persons neither 
working nor looking for work--the number of discouraged workers 
in October was 967,000, down from 1.2 million a year earlier.
    In summary, nonfarm payroll employment continued to trend 
up in October. The unemployment rate was little changed at 9 
percent.
    My colleagues and I would now be glad to answer your 
questions.
    [The prepared statement of Commissioner Hall, together with 
Press Release No. USDL-11-1576, appears in the Submissions for 
the Record on page 21.]
    Representative Hinchey. Anything else?
    Commissioner Hall. No.
    Representative Hinchey. Just a couple of questions. First 
of all, how would you characterize the state of the labor 
market today?
    Commissioner Hall. Well, I think the first thing, and it is 
an important thing, there is continued job growth. In fact, 
since the labor market trough in, let's say, February of 2010, 
from March on we have had continuous job growth, if you take 
out the temporary effects of Decennial Census workers being 
hired and fired for the Decennial. We have had steady job 
growth; it just hasn't been strong.
    I think my best characterization now is that we seem to be 
growing jobs at about 125,000 a month, we have over the past 
year. Actually, that is job growth, but it is still not enough 
job growth to start really making headway. It is keeping up or 
close to keeping up with the population, which means it is not 
strong enough to start lowering the unemployment rate.
    Representative Hinchey. Uh-huh.
    As we know, prior to losing jobs in August and September, 
the manufacturing sector had added jobs for 9 straight months 
and has been a source of strength for the recovery.
    In your view, how important is the manufacturing sector to 
employment in other sectors? And why do you believe the 
employment growth has slowed or stopped in recent months in 
manufacturing? And is it typical to see strong growth, then a 
couple of months where there is no job growth, and then a 
resumption of the earlier growth?
    Commissioner Hall. Well, the manufacturing sector does have 
fairly strong linkages to other sectors. In particular, 
particularly with wholesale trade, management of companies and 
enterprises, services to buildings and dwellings, truck 
transportation, and food service and drinking places, those are 
probably the top industries that are related to manufacturing. 
So manufacturing is important. The importance goes beyond just 
manufacturing.
    I am not sure I can tell you why employment growth has 
stopped. It did pick up, start to pick up, again this month. I 
think the more remarkable thing, to be honest, is that it has 
been growing at all, because if you look at any of the recent 
recessions, job loss in manufacturing has not recovered. 
Manufacturing just hasn't recovered at all from recent past 
recessions. So the fact now that we have had some job growth is 
encouraging.
    And you are right, in terms of the fluctuation of growth 
and not growth, that is not uncommon in any industry. And I 
think what you are seeing with manufacturing is just some 
variation in the growth. And it is not really strong growth, 
but it is pretty consistent growth, I think.
    Representative Hinchey. Yeah, it is--the fact of the matter 
is, I think, that the growth is very, very slow, and the 
unemployment rate is still 9 percent. And there are an awful 
lot of things that could be done, that should be done, to try 
to stimulate this economy.
    If you look at different sectors, we are now more than 2 
years into the economic recovery, but unemployment is still 
far, far too high. During the great recession, the construction 
and manufacturing sectors were hard-hit, while education and 
health services added jobs throughout the recession in every 
month but one; that was March of 2009.
    In the past year, what are the sectors that are continuing 
to face weakness in employment? And have any sectors shown new 
strength in the past year?
    Commissioner Hall. By far the weakest sector continues to 
be government employment. Over the past year, government 
employment has dropped by about somewhere over 300,000 jobs. 
That has been split between State government and local 
government.
    A number of other industries have had either little growth 
or little job loss over, say, the past year--for example, 
utilities, financial activities, in construction and other 
services. Those are all industries that have had relatively 
flat over the past year.
    The industries that have had the biggest job growth, 
professional business services has had over half a million jobs 
over the past year; education and health services, as you 
mentioned, mostly health services, that has grown by over 
400,000 jobs; and then we have had some job growth in places 
like manufacturing, a couple hundred thousand jobs in 
manufacturing; leisure and hospitality we have had some job 
growth.
    So the strong growth, anyway, is not widespread, and a 
number of industries haven't had very strong growth at all, but 
we are having a little growth in a couple of industries.
    Representative Hinchey. Well, thank you, Commissioner Hall.
    Mr. Brady.
    Vice Chairman Brady. Thank you, Mr. Chairman.
    If you are one of the 25 million Americans who are out of 
work and can't find a full-time job, today's numbers are 
disheartening yet again.
    But, Commissioner, at this monthly rate of a net 80,000 job 
growth, how long would it take for us to return to the 
unemployment levels before the recession?
    Commissioner Hall. Well, the short answer is never. To keep 
up with just the population growth, you probably need, my 
estimate is around 130,000 jobs. So at 80,000, you are not 
quite even keeping up with population. So, in fact, over a long 
time period, you might even see the unemployment rate edge back 
up.
    Vice Chairman Brady. So, you made the comment that for the 
past year we are averaging less than the 130,000 as well. So if 
we looked at the broader picture, the past 12 months, the 
answer still would be, we are never going--at this pace, never 
going to get back to the point before this recession began.
    Commissioner Hall. That is right.
    Vice Chairman Brady. Can I ask you about the number of 
workers who are actually in the workforce today? It has 
recently hit 30-year lows. It has been a long time since we 
have had this low a percentage of people in the workforce.
    It has ticked up very slightly here in the last month or 
so. Do you expect that to continue? And isn't that one of the 
indicators of restoring a healthy economy that, today, we just 
don't see?
    Commissioner Hall. Yeah, I wouldn't want to speculate about 
expectations, but the point--that it is a valid point. I think 
the labor force is probably something on the order of 4 million 
below what it would be under normal times.
    And I think, to get strong job growth, we are going to have 
to see this sort of confidence in the economy where people need 
to get back in the labor force, and we need to see the labor 
force start to grow again, and that just hasn't happened.
    Vice Chairman Brady. Well, Chairman, because I know the 
votes are coming shortly, I would like to cut my time short so 
we can get more questions in.
    Representative Hinchey. Thank you.
    Mrs. Maloney.
    Representative Maloney. Welcome.
    I always like to start with the good news. What are the 
bright spots in the report today?
    Commissioner Hall. Well, we do have job growth, and we do 
have the job growth in a few industries. Mining added some 
jobs, and retail trade added some jobs, professional business 
services, education, leisure and hospitality.
    And, you know, we have had a pick-back-up, I think, in 
temporary help services. And the reason I focus on that is that 
that very often is a leading indicator of a pickup in job 
growth. And for a little while there, the job growth in 
temporary help services flattened out, we got none. And it 
seems to be picking up a little bit, and that is good news.
    And then the unemployment rate, you know, it was 
essentially unchanged, but it did tick down a little bit. At 
least our point estimate went from 9.1 to 9.0. I am not sure I 
would put a lot of stock into that because it is a very small 
change, but that could be an encouraging sign.
    Representative Maloney. This recession has, in some ways, 
been characterized as a man's recession because of the big 
losses we have seen in manufacturing and construction. So I am 
worried about how these employment gains for women during this 
recovery are doing, especially due to the losses in the State 
and local government, which you mentioned was roughly 300,000.
    Can you tell me how women are faring in the past 2 years or 
during this recession? And if you have the numbers, fine; if 
not, if you can get it to us, we would love it.
    Commissioner Hall. Okay. I can get you the numbers. I can 
generally characterize it, though.
    Representative Maloney. Okay.
    [Letter dated November 22, 2011, transmitting Dr. Keith 
Hall's response to Representative Carolyn Maloney appears in 
the Submissions for the Record on page 63.]
    Commissioner Hall. Although this has been termed a man's 
recession because so many more men lost jobs than women, women 
did lose a significant number of jobs. And that actually 
doesn't always happen. In the last couple of recessions, the 
employment by women didn't really go down very much.
    And then the other end of that is, in the recovery so far, 
it really has been mostly men in the recovery. There have been 
very few women re-employed in the recovery so far, and for 
exactly the reason you cited, I think. Women, in particular, 
are over-represented in government, particularly local 
government, and they actually have fairly strong representation 
in financial activities, and that hasn't recovered very 
strongly.
    Representative Maloney. Could you characterize--and this is 
my last question so that Dr. Burgess can get in some questions.
    It has been characterized also as the credit recession. And 
how is this different from other recessions? Particularly, 
didn't other recessions have trouble with access to credit? Why 
is this called the credit recession?
    Commissioner Hall. I think it is fair to say that that--it 
is fair to say that the real depth of this recession, and 
length--it has been very, very deep and very long--has been 
due, in large part, to the credit markets. At least that is the 
way it appears to me. That is what makes it probably a great 
recession as opposed to a recession, has been the credit 
markets.
    Representative Maloney. But didn't other recessions have 
challenges with access to credit?
    Commissioner Hall. Not to the extent that this recession 
did. In fact, that is a really----
    Representative Maloney. And the causes were different. What 
do you say was the cause of this recession?
    Commissioner Hall. I think in the early stages it was what 
you might call a wealth effect. I think people lost housing 
value and they lost wealth, and that sort of started to cause 
consumer demand to drop off.
    But it really got bad when the credit markets locked up. 
And once credit markets locked up and businesses started having 
trouble getting loans----
    Representative Maloney. So the financial crisis.
    Commissioner Hall. Yes, exactly.
    Representative Maloney. Thank you.
    Representative Hinchey. Unfortunately, we have about 5 
minutes for the votes that are on the floor. Do you have time 
to stay here for a little while? There are two votes, and we 
will be right back after these votes.
    Commissioner Hall. Sure, absolutely.
    Representative Hinchey. All right. Thank you very much.
    [Recess.]
    Representative Hinchey. Well, thank you very much, 
gentlemen, for waiting for us. This session of votes is over, 
but there is a new session coming up shortly. And we want to 
just thank you very much for everything you are doing.
    I want now to ask Mr. Mulvaney if he has some interesting 
questions.
    Representative Mulvaney. I have questions. I don't know if 
they are interesting or not. We will find out. Thank you, Mr. 
Chairman.
    Commissioner Hall, is it possible--you hear a lot of 
discussion in this town as to what life would have been like 
with or without whatever it is that we do. In this particular 
circumstance, it is with or without the stimulus.
    Is it possible to estimate what the unemployment rate would 
have been without the stimulus program?
    Commissioner Hall. Yeah, that is--generally, what we do is, 
sort of, reality-based. So what we are doing is we are trying 
to give you our best picture of where the economy is. Our 
surveys really aren't designed to, sort of, get reasons of 
things from people when we send out a survey, especially our 
establishment survey. So there is really no way for us to 
collect data on what would have been without the stimulus or 
without anything really.
    Representative Mulvaney. The CBO recently put out a report 
that said that the unemployment rate would have been between 
0.3 points to 1.1 point higher than it otherwise would have 
been. Are you familiar with that report at all or not?
    Commissioner Hall. A little bit, yes.
    Representative Mulvaney. And how are you familiar with it, 
sir?
    Commissioner Hall. I have some notion of the sort of 
methodology that they have used and, sort of, how they are 
arriving at that number.
    Representative Mulvaney. Do you think it is fairly sound, 
being familiar with their methodology?
    Commissioner Hall. Yeah, it certainly is sound in the sense 
that it is using common methodology that economists use. And, 
you know, what they are essentially doing is they are taking 
estimates of the impact things have had in the past, government 
spending has had in the past, and sort of applying it to the 
current situation, doing it that way.
    The difficulty of that, of course, is that it is sort of a 
model estimate, and it really is very much based on assumptions 
and views about how the economy works.
    So, while the methodology is fairly standard and et cetera, 
again, it is not really giving you data, it is not really 
giving you anything like what we give you with the employment 
numbers.
    Representative Mulvaney. Got you. If you take their 
numbers--we are at 9.1 percent this morning, is that where we 
are?
    Commissioner Hall. Yes.
    Representative Mulvaney. Then someplace--according to them, 
it would be between 9.4 and 10.2. That is their range of 0.3 
percent to 1.1 percent.
    Are there any set of circumstances, any set of reasonable 
assumptions, that anybody could come out and say that the 
unemployment rate today would be 15 percent but for the 
stimulus program? Is there any way, you know, in any reasonable 
analysis, you could get to that number?
    Commissioner Hall. I don't know. I don't want to try to 
characterize that. It is making assumptions that the economy 
was going to get a lot worse than it did get and a lot worse 
than anybody was forecasting. So, in that sense, it is a 
stretch.
    Representative Mulvaney. Have you seen any scientific or 
educational or intellectual-backed studies that have justified 
a claim that the unemployment rate would be 15 percent today 
but for the stimulus program?
    Commissioner Hall. Yeah, it is just that the sort of work 
that can be done is pretty similar to what the CBO did, and 
that is with a model and with some assumptions about what they 
believe would be the typical effect of government spending. You 
get an answer that way.
    Representative Mulvaney. Have you seen any reputable 
studies that would lead you to believe or that would show that 
the unemployment rate today would be 15 percent but for the 
stimulus program?
    Commissioner Hall. No, but I haven't looked. And I am not 
sure I would call--if the CBO--was the CBO estimating that?
    Representative Mulvaney. No, that is actually Mrs. Pelosi's 
office this morning.
    Commissioner Hall. Oh, okay. Yeah, I haven't looked at that 
study. I haven't looked at other studies.
    Representative Mulvaney. Do you think there is a study?
    Commissioner Hall. I really have no idea.
    Representative Mulvaney. So you have never heard of any 
study that would say that unemployment would be 15 percent?
    Commissioner Hall. No, but we are pretty focused on the 
real data, so I am not looking.
    Representative Mulvaney. I am focused on the real data, as 
well. I just sort of wondered if this had anything to do with 
real data, and it sounds like it doesn't.
    I will yield back my time and hope we get a second round of 
questions on some other topics. Thank you.
    Representative Hinchey. Thank you very much.
    I will just ask a couple of simple questions.
    The relationship between regulation, the connection between 
regulation and job loss--we understand there are a lot of 
different theories out there as to why the labor market has 
been slow to recover. Some point to the weak overall economic 
growth. Some say there is too much uncertainty and that is 
preventing firms from hiring. Others say there is too much 
regulation.
    I saw a piece recently in The New York Times which 
referenced data BLS collects on why businesses carry out mass 
layoffs. Interestingly enough, government regulation was listed 
by businesses as a reason for the layoffs just 0.2 percent of 
the time in the first half of 2011, just 0.2 percent of the 
time in 2010 and 2009.
    By contrast, lack of demand was given--lack of demand, 
particularly, was given as the reason for 29.7 percent of 
layoffs in the first half of 2011, 30.6 percent in 2010, 39.1 
percent in 2009. Other surveys by small business groups get 
similar results.
    I wonder, have you seen any data to suggest regulation is 
interfering with hiring?
    Commissioner Hall. I am not sure too much of our data 
addresses that point. This is, sort of, again, back to the 
issue of, you know, we collect the data; we don't do a lot of 
things that would tell us why things happen.
    The study you are referring to actually is based on BLS 
data. We have something called a Mass Layoff Statistics 
program. And what we do there is, any time there are 50 
unemployment claims, or initial unemployment claims, over a 5-
week period, we actually call up that establishment and verify 
that they have laid off 50 or more workers in a month, and we 
define that as a mass layoff.
    And once we identify a mass layoff, then we send them a 
questionnaire and ask why. And the data you are quoting is from 
this program. And so, for these mass layoffs--we had about 18 
mass-layoff events, for example, in 2010. Some of them cited 
government regulation as the reason.
    All right, so, while that is absolutely true and this does 
give you some insight on it, one thing to just sort of keep in 
mind is, that is only talking about mass-layoff events. Smaller 
events wouldn't be captured there, and there would be no effect 
of regulation on job growth, holding back job growth or 
something like that.
    But, I mean, this does give you some information. It is 
just sort of limited. Other than that, I don't think we have a 
lot that informs you about regulations' impact on employment.
    Representative Hinchey. So--oh, Mr. Burgess. Nice to have 
you back. Please.
    Representative Burgess. Thank you.
    Commissioner Hall, you were talking a moment ago before we 
broke about the manufacturing sector and beginning to see some 
upticks there and then the influence of the other sectors on 
the manufacturing sector. And I am particularly interested in 
what is broadly characterized as in the mining, which would 
include the oil field expansions.
    And some of the bright spots in the country are areas where 
domestic production of oil and natural gas has really come 
forward in a big way in literally the last decade, sort of the 
last 15 years.
    But do you have any thoughts on areas like the Bakken Shale 
in North Dakota, the Barnett Shale where I live, Eagle Ford 
Shale in South Texas, Marcellus Shale in Pennsylvania, the 
effect that the development in these areas has had, not just on 
the mining sector, but on the manufacturing sector?
    Commissioner Hall. Yeah, and I don't know a lot about the 
specifics. This month we had about 6,000 jobs in mining.
    It is not a big sector, it is not a lot of employment, but 
that has been supporting employment. In places like--you 
mentioned North Dakota. North Dakota has the lowest 
unemployment rate in the country, and it seems to be largely 
based on growth in mining employment. So that may or may not--
that may be related. I just don't know enough about the 
specifics.
    Representative Burgess. Well, there are, of course, 
concerns about doing it properly and having all the necessary 
environmental controls, and I don't disagree with that. But I 
will just tell you, in North Texas, where the Barnett Shale is, 
where I live, we found out about the recession a year after it 
started. December of 2007, I believe, is when the economists 
pinpoint the start of the recession nationally. We were 
probably January of 2009 before it really became evident in 
that part of Texas that, in fact, there was a problem.
    I don't think the entire economy can recover on the 
strength of this one sector, and so I agree with you that the 
numbers, compared to the overall economy, may be small. But I 
am certainly concerned that some of the things that I am seeing 
happen on the regulatory side, particularly through the 
Environmental Protection Agency, could be damaging. And this, I 
think, has to be part of our recovery.
    Last month, or really just a week and a half ago, I did an 
economic development summit in a part of Fort Worth that I 
represent that is fairly economically challenged. And we had 
some business owners--we actually had Richard Fisher, who is 
the president of the Dallas Federal Reserve Bank, come and talk 
to us, and it was fairly revealing.
    Now, a quote from Dr. Fisher: ``Those with the capacity to 
hire American workers, small business as well as large, 
publicly created or private, are immobilized, not because they 
lack entrepreneurial zeal or do not wish to grow, not because 
they can't access cheap and available credit, rather they 
simply cannot budget or manage for the uncertainty of fiscal 
and regulatory policy.''
    Is that a statement that you would generally agree with?
    Commissioner Hall. I think I would like to not comment on 
that sort of thing, given my role.
    Representative Burgess. Very well. Okay. I will, then. And 
I think he is right on the mark.
    And I guess the bigger question for up here, I mean, here 
we are receiving some numbers, and the numbers today look 
better than they have perhaps in previous months, but then, by 
your own admission, at this rate of growth, to get back to pre-
2008 levels, we are not going to get there. And not just for 
the last month, but if you broaden it out to the past 12 
months, 3 years into this administration, continuing to follow 
the trajectory, we don't get back to pre-recession levels.
    But I guess the bigger question is--and I had some small-
business owners as part of that economic development summit, 
and, I mean, they kept talking about the crushing burden of 
paperwork, the uncertainty regarding financial regulations, 
health-care regulations, environmental regulations. And, you 
know, it is no great surprise they are in a hunker-down mode 
because they just don't know what the future is going to bring.
    I hope when we have these visits in the future that you 
bring good news to us, but, honestly, I think we have a lot of 
work to do on the regulatory end here in the People's House.
    So thank you, Mr. Chairman. I will yield back.
    Representative Hinchey. Thank you very much.
    Mr. Brady.
    Vice Chairman Brady. Well, I know a vote is on, so I will 
be brief.
    Commissioner, you mentioned at this rate of 80,000 jobs and 
at last year's rate of 125,000 jobs we literally will never get 
back to our pre-recession levels.
    Don't we need about 250,000 jobs a month to really begin 
whittling down the unemployment rate? And even then, it would 
take a number of years, roughly 2, 3 years, do you think, at 
that height and rate for us to really start to bring this down?
    Commissioner Hall. Yeah, actually, I like your number of 
about a quarter-million jobs to start to make headway. But even 
at that rate, it may be more than 3 years.
    Vice Chairman Brady. Gosh.
    Commissioner Hall. It is----
    Vice Chairman Brady. Longer than that.
    Commissioner Hall. It may be longer than that.
    Vice Chairman Brady. Yeah. Look, I want this economy to 
recover. I think the Obama economy has been disheartening for 
people. We have to have a fresh start.
    Let me ask you this. Recently, Senate Majority Leader Reid 
made the comment that jobs along Main Street are doing fine; it 
is government jobs that he is worried about. But I took a look 
at your numbers for the past 3 years since this recession 
began, and it appears we have lost more than 4 million jobs 
along Main Street and have lost a little less than 700,000 in 
government jobs. And we have a chart that shows here what the 
difference is. And, obviously, the private-sector job loss has 
been considerably greater than that within government.
    [Chart titled ``Monthly Change in Government Payrolls 
Seasonally Adjusted January 2008-October 2011'' appears in the 
Submissions for the Record on page 60.]
    [Chart titled ``Monthly Change in Private Payrolls 
Seasonally Adjusted January 2008-October 2011'' appears in the 
Submissions for the Record on page 61.]
    [Chart titled ``Monthly Change in Private Payrolls 
Seasonally Adjusted January 2008-September 2011'' appears in 
the Submissions for the Record on page 62.]
    So, just sort of fact-checking the Senator's comments, is 
it accurate to say that in this recession public-sector jobs 
have been hit harder by this downturn than private-sector jobs?
    Commissioner Hall. No, it isn't. I would say the private 
sector has been hit very hard by this recession.
    Vice Chairman Brady. As we go forward and look for a way to 
get out of this, out of the Obama economy, isn't it private-
sector growth that traditionally has brought us back into the 
more stable economy and created the sustainable recovery I 
think we are all hoping for?
    Commissioner Hall. Sure, absolutely. The private sector has 
most of the jobs, and that is absolutely true. If you want to 
look at the health of the economy, you look at the private-
sector job growth.
    Vice Chairman Brady. Commissioner, thanks for being here 
today. I know we are anxious for the day you bring us some good 
news going forward. So, thanks.
    Representative Hinchey. Mr. Mulvaney.
    Representative Mulvaney. Very briefly, to follow up on what 
Vice Chairman Brady just said, if 250,000 jobs per month is 
that goal--and I think we all agree that more is better and 
less is worse. But if 250,000 is sort of the target--the data I 
have in front of me only goes back to mid-2009. How many times 
since January of 2009 has the economy created more than 250,000 
jobs in a month?
    I only have one in front of me, which is----
    Commissioner Hall. Right.
    Representative Mulvaney [continuing]. Sometime in the 
spring of 2010. But, again, my data doesn't go all the way back 
to the beginning of this administration. So, since January of 
2009, how many times has the economy created more than 250,000 
jobs in a month?
    Commissioner Hall. I see 2 months, but, to be honest, both 
of those months were Census was hiring temporary workers for 
the Decennial. If you take out those Census effects, I am not 
sure we had any months where we had a quarter of a million 
jobs.
    Representative Mulvaney. So, since 2009, January of 2009, 
since the Obama administration took over, we have never 
generated 250,000 jobs on a monthly basis, on a permanent 
basis, when you make exceptions for the Census hiring?
    Commissioner Hall. I believe that is--I don't have the 
exact numbers in front of me, but I believe that is correct.
    Representative Mulvaney. And to follow up on the other 
thing Mr. Brady mentioned regarding the Federal hiring. We just 
heard some interesting testimony yesterday in the Oversight and 
Government Regulation Committee that said that--and to follow 
on what you said, Mr. Vice Chairman--there is 12 percent more 
Federal workers since this recession began. There are 14.8 
percent more, that is 275,000 more, workers in the executive 
branch and 100,000 more civilian workers at the Department of 
Defense since this recession began.
    So I was glad to hear you say you think that the private 
sector has taken it on the chin a little bit heavier than the 
public sector. Because, certainly, if you go back to the 
beginning of this recession, there are actually more government 
workers at the Federal level than there were when things began.
    So, thank you, Mr. Commissioner.
    Thank you, Mr. Chairman.
    Representative Burgess. Would you yield to me?
    Representative Mulvaney. And I will yield to Mr. Burgess 
the balance of my time.
    Representative Burgess. It is interesting about, backing 
up, the Census data where the job growth did see 250,000. I 
recall those hearings where we had those discussions.
    The health care sector that you reference in your report to 
us today, those are private-sector jobs, correct? This does not 
reflect government growth in the public sector.
    Commissioner Hall. Correct.
    Representative Burgess. It doesn't reflect government jobs 
in the health-care sector, is that correct?
    Commissioner Hall. No, that is--yeah, the government jobs 
in the health sector are in government jobs.
    Representative Burgess. One of the things that has 
continued to worry me, when we started the recession there were 
essentially two areas that were not affected. One was health 
care. Has the growth in health-care job creation, has that 
continued to be where it was pre-recession?
    Commissioner Hall. That is a good question. My recollection 
is that it has been roughly that. I don't think--if it slowed 
down, it didn't slow down by much. So I am guessing--I will 
have to get back with you on that for sure, but I think it has 
been pretty much pre-recession growth.
    Representative Burgess. If I could ask you to get back to 
the committee on that.
    Commissioner Hall. Okay. Sure.
    Representative Burgess. If you could also, over that same 
time period, track the growth in public-sector health-care 
employment--because, as you know, there have been some big 
changes in the policy side of health care that have occurred 
over the last 15 months--it would be interesting to see that, 
as well.
    Commissioner Hall. Okay.
    [Letter dated December 1, 2011, transmitting Dr. Keith 
Hall's response to Representative Michael C. Burgess appears in 
the Submissions for the Record on page 67.]
    Representative Burgess. Thank you, Chairman, for the 
indulgence. I yield back.
    Representative Hinchey. Thank you very much.
    One of the points that I think we should focus on is that 
the last administration didn't create private-sector jobs. That 
healthy job-creation rate of 250,000 per month was absent 
during the previous administration.
    Commissioner Hall. That is absolutely correct. The 
expansion between the two recessions this time was not very 
strong, and we did not exceed 250,000. I don't know if we 
exceeded it--we must have once or twice, but if we did, we 
didn't do it very much. That is correct.
    Representative Hinchey. I just have one last question. The 
first decade of the 21st century has been characterized by 
rising income inequality in addition to the loss of jobs--the 
loss of jobs, unemployment, and then rising income inequality, 
the rich getting richer while middle-class incomes are being 
stagnated.
    I am worried that the unemployment rate is exacerbating 
this inequality. Do you have any information on the 
characteristics of the unemployed, such as, for example, 
whether they tended to have worked in lower-wage jobs?
    Commissioner Hall. Not directly, but I really do think we 
have a pretty good proxy, and that is by education. Because the 
education levels really are very closely related to income and 
wages and labor force participation and unemployment rates. And 
the higher the education, the better off you are.
    So there is a pretty significant difference. So if you get, 
for example, people with less than a high school diploma, their 
current unemployment rate is 13.8 percent, and they have been 
much--it is much higher than people with, say, a bachelor's 
degree, at 4.4 percent.
    Representative Hinchey. Thank you very much. I appreciate 
the answers you have given to all of these questions. The 
Members deeply appreciate it.
    We have about 3 minutes to go back and do some more votes, 
so we will adjourn the committee now.
    Thank you. I deeply appreciate it. Thank you very much. I 
look forward to doing it again soon.
    [Whereupon, at 11:17 a.m., the committee was adjourned.]
                       SUBMISSIONS FOR THE RECORD

Prepared Statement of Representative Kevin Brady, Vice Chairman, Joint 
                           Economic Committee
    Commissioner Hall, I want to thank you for spending your morning 
with us as we review the employment situation. For some time now, 
you've had the difficult job of being the bearer of bad news as many 
hardworking Americans have desperately sought a sustained economic 
recovery. You'll be happy to know that we don't shoot the messenger 
here in Washington.
    I'd like to begin with some potential hope for our economy. 
Following two dismal quarters of anemic growth, real gross domestic 
product grew at an annual rate of 2.5 percent in the third quarter of 
this year. Finally, America's economy is marginally larger that it was 
when the recession began in December 2007.
    Unfortunately, the outlook going forward looks less rosy. 
Projections of future economic growth for the balance of this year and 
next have been significantly lowered by the Fed as well as 
international economic organizations. The turbulence from a potential 
financial crisis in Europe could still precipitate a double-dip 
recession here--a very real threat which could have been avoided had 
poor economic policies from the White House not resulted in a very weak 
and slow recovery.
    Equally troubling is this jobless recovery. More than two years 
after the recession officially ended, there are 6.4 million fewer 
payroll jobs in America than when the recession began in December 2007, 
and more than 5.9 million Americans are long-term unemployed.
    The President's policies are just not working. By comparison, the 
Reagan expansion, which followed the similarly deep 1981-1982 
recession, outperforms the Obama economy by all metrics, including 
economic growth and job creation. The difference is that the Reagan 
expansion occurred in a political environment that fostered private 
business investment and encouraged Americans to work and save. 
President Reagan's policies were a favorable tailwind.
    In contrast, the American economy now confronts policy headwinds. 
Virtually every step of the way President Obama and Congressional 
Democrats have increased, not decreased, the uncertainty that Americans 
and American businesses face. This uncertainty has discouraged 
businesses from making the investments in new buildings, equipment, and 
software that would create millions of new jobs and cause a rapid fall 
in the unemployment rate. Instead, Washington should create a political 
environment that incentivizes Americans to work and save and 
incentivizes American businesses to invest. Then, Washington should get 
out of the way.
    This is the first employment hearing since President Obama's 
proposal for a second round of stimulus spending that would require 
massive new borrowing from foreign entities, creating debt, which 
future generations of hardworking Americans would have to service. 
Stimulus II is not paid for. It will add billions more to the national 
debt and is wrongly focused on creating taxpayer-funded government 
jobs. Not only can we not afford it, but it is a glaring admission that 
the first stimulus failed. Remember, we still have 1.3 million fewer 
American jobs than when the original stimulus began; a million and a 
half fewer jobs. Enough is enough. Hardworking Americans deserve a 
fresh start.
    America needs to grow jobs, not grow the federal government. 
Ultimately, private business investment drives private sector payroll 
job growth. Businesses make their investment based on the outlook for 
the next decade, not just the next year. The President's proposal--
which even Senate Democrats quickly rejected--seeks to spur investment 
through temporary tax reductions, but does little to encourage 
businesses to increase their investment over time.
    Rather than Washington taking more of what Americans earn, our 
nation craves a simple, fairer tax code that increases the incentives 
for Americans to work and save and for American businesses to invest in 
new buildings, equipment, and software. This requires a permanent 
reduction in the effective marginal tax rates on both capital and 
labor.
    Moreover, tax reform should help instead of hinder American 
businesses who want to invest in America. As I have proposed, 
Washington should immediately lower the tax gate to allow American 
firms competing successfully overseas to bring home their profits that 
are stranded abroad so that these firms can invest in America: in new 
jobs; research and development; expansions; and financial stability. 
Repatriation is a free-market stimulus of nearly $1 trillion that will 
create up to three million American jobs, increase federal tax revenues 
and boost the economy by between one and four percent.
    Now that's a stimulus America can get behind.
    I urge President Obama to join Congressional Republicans in 
supporting a comprehensive, bipartisan tax reform that results in a 
permanent reduction in marginal tax rates. Twice in my lifetime, I have 
seen the benefits of such plans: first under Kennedy, and then under 
Reagan. Both men trusted in the American people. Put another way, they 
placed their faith in the ``marketplace'' which is nothing more than 
the collective judgment of the American people as to where to invest 
their money. Their sound economic policies fueled the economic booms of 
the 1960s and the 1980s and 1990s. Kennedy and Reagan helped spawn 
entirely new industries and kept our great nation first in R&D, 
patents, inventions, and entrepreneurship. President Obama has a real 
chance to be a ``game changer,'' here, or, as he likes to say a 
``transformational'' president. All he needs do is follow his 
predecessors' lead.
    Republicans in Congress are ready and willing to work with the 
President to create real jobs along the Main Streets across America.
    With that, Dr. Hall, I look forward to hearing your testimony.
                               __________
  Prepared Statement of Dr. Keith Hall, Commissioner, Bureau of Labor 
                               Statistics
    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to discuss the employment and 
unemployment data we released this morning.
    Nonfarm payroll employment continued to trend up in October 
(+80,000), and the unemployment rate, at 9.0 percent, was little 
changed. Over the past 12 months, payroll employment has increased by 
an average of 125,000 per month.
    In October, private-sector employment increased by 104,000, with 
continued growth in professional and business services, leisure and 
hospitality, health care, and mining. Government employment continued 
to trend down.
    Employment in professional and business services continued to trend 
up in October (+32,000). In recent months, there have been modest job 
gains in temporary help services and in management and technical 
consulting services.
    Employment in leisure and hospitality continued to trend up over 
the month (+22,000). Since a recent low in January 2010, the industry 
has added 344,000 jobs.
    Health care employment edged up by 12,000 in October, following a 
gain of 45,000 in September. The two-month average increase of 29,000 
was in line with the industry's recent trend. In October, offices of 
physicians gained 8,000 jobs.
    Mining employment continued to expand in October (+6,000). Since 
October 2009, mining has added 152,000 jobs, largely due to gains in 
support activities for mining.
    Construction employment was down by 20,000 in October, largely 
offsetting a gain in the prior month. Both over-the-month movements 
largely occurred in nonresidential construction industries. Employment 
in other major private-sector industries changed little in October.
    Employment in government continued to trend down (-24,000). State 
government, excluding education, lost 16,000 jobs over the month. 
Employment in both state government and local government has been 
falling since the second half of 2008.
    Average hourly earnings of all employees on private nonfarm 
payrolls rose by 5 cents to $23.19 in October, following a gain of 6 
cents in September. Over the past 12 months, average hourly earnings 
have risen by 1.8 percent. From September 2010 to September 2011, the 
Consumer Price Index for All Urban Consumers (CPI-U) increased by 3.9 
percent.
    Turning now to measures from our survey of households, the 
unemployment rate was essentially unchanged at 9.0 percent in October. 
The jobless rate has held in a narrow range from 9.0 to 9.2 percent 
since April. In October, there were 13.9 million unemployed persons, 
little changed from the prior month. The number of persons jobless for 
27 weeks and over declined by 366,000 to 5.9 million, or 42.4 percent 
of total unemployment.
    The employment-population ratio, at 58.4 percent, was little 
changed in October. Among the employed, those working part time for 
economic reasons fell by 374,000, to 8.9 million.
    The labor force participation rate, at 64.2 percent, was unchanged 
over the month. Thus far in 2011, the participation rate has held at 
about 64 percent.
    Among those outside of the labor force--persons neither working nor 
looking for work--the number of discouraged workers in October was 
967,000, down from 1.2 million a year earlier.
    In summary, nonfarm payroll employment continued to trend up in 
October (+80,000). The unemployment rate was little changed at 9.0 
percent.
    My colleagues and I now would be glad to answer your questions.
    [GRAPHIC] [TIFF OMITTED] 72183.004
    
    [GRAPHIC] [TIFF OMITTED] 72183.005
    
    [GRAPHIC] [TIFF OMITTED] 72183.006
    
    [GRAPHIC] [TIFF OMITTED] 72183.007
    
    [GRAPHIC] [TIFF OMITTED] 72183.008
    
    [GRAPHIC] [TIFF OMITTED] 72183.009
    
    [GRAPHIC] [TIFF OMITTED] 72183.010
    
    [GRAPHIC] [TIFF OMITTED] 72183.011
    
    [GRAPHIC] [TIFF OMITTED] 72183.012
    
    [GRAPHIC] [TIFF OMITTED] 72183.013
    
    [GRAPHIC] [TIFF OMITTED] 72183.014
    
    [GRAPHIC] [TIFF OMITTED] 72183.015
    
    [GRAPHIC] [TIFF OMITTED] 72183.016
    
    [GRAPHIC] [TIFF OMITTED] 72183.017
    
    [GRAPHIC] [TIFF OMITTED] 72183.018
    
    [GRAPHIC] [TIFF OMITTED] 72183.019
    
    [GRAPHIC] [TIFF OMITTED] 72183.020
    
    [GRAPHIC] [TIFF OMITTED] 72183.021
    
    [GRAPHIC] [TIFF OMITTED] 72183.022
    
    [GRAPHIC] [TIFF OMITTED] 72183.023
    
    [GRAPHIC] [TIFF OMITTED] 72183.024
    
    [GRAPHIC] [TIFF OMITTED] 72183.025
    
    [GRAPHIC] [TIFF OMITTED] 72183.026
    
    [GRAPHIC] [TIFF OMITTED] 72183.027
    
    [GRAPHIC] [TIFF OMITTED] 72183.028
    
    [GRAPHIC] [TIFF OMITTED] 72183.029
    
    [GRAPHIC] [TIFF OMITTED] 72183.030
    
    [GRAPHIC] [TIFF OMITTED] 72183.031
    
    [GRAPHIC] [TIFF OMITTED] 72183.032
    
    [GRAPHIC] [TIFF OMITTED] 72183.033
    
    [GRAPHIC] [TIFF OMITTED] 72183.034
    
    [GRAPHIC] [TIFF OMITTED] 72183.035
    
    [GRAPHIC] [TIFF OMITTED] 72183.036
    
    [GRAPHIC] [TIFF OMITTED] 72183.037
    
    [GRAPHIC] [TIFF OMITTED] 72183.038
    
    [GRAPHIC] [TIFF OMITTED] 72183.039
    
    [GRAPHIC] [TIFF OMITTED] 72183.040
    
    [GRAPHIC] [TIFF OMITTED] 72183.041
    
    [GRAPHIC] [TIFF OMITTED] 72183.001
    
    [GRAPHIC] [TIFF OMITTED] 72183.002
    
    [GRAPHIC] [TIFF OMITTED] 72183.003
    
    [GRAPHIC] [TIFF OMITTED] 72183.042
    
    [GRAPHIC] [TIFF OMITTED] 72183.043
    
    [GRAPHIC] [TIFF OMITTED] 72183.044
    
    [GRAPHIC] [TIFF OMITTED] 72183.045
    
    [GRAPHIC] [TIFF OMITTED] 72183.046
    
    [GRAPHIC] [TIFF OMITTED] 72183.047
    
    [GRAPHIC] [TIFF OMITTED] 72183.048
    
    [GRAPHIC] [TIFF OMITTED] 72183.049
    
  

                                  <all>

</pre></body></html>
